   October 28, 2005




Acquisition
Contract Surveillance for Service
Contracts
(D-2006-010)




            Department of Defense
           Office of Inspector General
Quality               Integrity      Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
AAA                   Army Audit Agency
AFAA                  Air Force Audit Agency
COR                   Contracting Officer’s Representative
DCAA                  Defense Contract Audit Agency
DCMA                  Defense Contract Management Agency
DFARS                 Defense Federal Acquisition Regulation Supplement
DISA                  Defense Information Systems Agency
DoD IG                Department of Defense Inspector General
FAR                   Federal Acquisition Regulation
GAO                   Government Accountability Office
HNC                   U.S. Army Corps of Engineers, Engineering and Support Center,
                         Huntsville
MCP                   Management Control Program
NAS                   Naval Audit Service
QASP                  Quality Assurance Surveillance Plan
TPOC                  Technical Point of Contact
                Department of Defense Office of Inspector General
Report No. D-2006-010                                                    October 28, 2005
   (Project No. D2004-D000CF-0140.000)

                  Contract Surveillance for Service Contracts

                                 Executive Summary

Who Should Read This Report and Why? DoD contracting officials, program
managers, and military personnel involved in the administration and oversight of
contractor performance and costs on service contracts should read this report. This report
discusses problems identified in contract oversight for service contracts that may lead to
DoD accepting substandard performance by contractors, paying for services and items
not received, and awarding contracts to vendors with a history of substandard
performance.

Background. Office of Federal Procurement Policy Letter No. 93-1, “Management
Oversight of Service Contracting,” May 18, 1994, encourages Inspectors General to
conduct vulnerability assessments of service contracting. This report represents the sixth
DoD audit of service contracts, but is the first to look exclusively at surveillance of
service contracts, an area identified as problematic in previous reports. This audit was
initiated because of the increasing significance of contracts for services in DoD. From
FY 1993 though FY 2004, DoD procurement of services increased from $61.9 billion to
$127.4 billion, an increase of 106 percent. In FY 2004, DoD spent $230.7 billion
purchasing goods and services costing over $25,000. Of the $230.7 billion,
$127.4 billion (55 percent) were for services. This report evaluates whether DoD
provided sufficient oversight for service contracts to ensure that contractors performed in
accordance with contract specifications.

Results. For the 23 judgmentally selected service contracts reviewed, contracting
officers usually appointed representatives to monitor contractors’ performance.
However, contracting officials and requiring activity personnel did not provide sufficient
contract oversight for service contracts to ensure that contractors were performing in
accordance with contract specifications. Of 23 contracts reviewed, 3 contained required
quality assurance surveillance plans, 14 had no surveillance plans, and 6 had inadequate
surveillance plans. Non-Defense Contract Audit Agency (DCAA) officials approved
vouchers for 13 contracts. In addition, contracting and program offices performed
cursory reviews of contractor performance against costs for 12 contracts, did not
adequately record past performance history for 10 contracts, and did not use
performance-based contracting methods for 18 contracts. Overall, DoD could not be
assured that it received the best value when contracting for services.

The Under Secretary of Defense for Acquisition, Technology, and Logistics needs to
emphasize to senior contracting officials and program managers the requirement to
develop quality assurance surveillance plans for service contracts and ensure that
program office officials are sufficiently trained on the preparation of quality assurance
surveillance plans that emphasize the use of metrics. The Under Secretary also needs to
revise current policies and procedures to clearly define the roles and responsibilities of
contract administration personnel; ensure that contract and program office personnel
coordinate with the DCAA office that has the responsibility for voucher review for all
cost-reimbursement and time-and-materials service contracts; and include in all contracts
Section G, “Contract Administration,” the roles and responsibilities of contract
administration personnel. Acquisition Executives for the Army, the Navy, the Air Force,
and the Director, Defense Information Systems Agency, need to provide quality
assurance surveillance plan training to program office officials. The Commander, U.S.
Army Corps of Engineers, Engineering and Support Center, Huntsville, and the Chief,
Defense Information Technology Contracting Organization, Scott Air Force Base, should
consider using DCAA services for prepayment voucher approvals, confirmation of rates,
and review of contractor systems to ensure that off-site accounting for costs is proper.
See the Findings section of the report for the detailed recommendations.

We also reviewed the management control program as it related to contract surveillance
for service contracts. We identified a material management control weakness for the
Military Departments and the Defense Information Systems Agency. Although the
Government Accountability Office has designated DoD contract management a “high-
risk” area, Military Departments and the Defense Information Systems Agency did not
have management controls in place to ensure adequate surveillance was performed on
contracts, particularly cost-reimbursement and time-and-materials contracts.

Management Comments and Audit Response. The Acting Director of Defense
Procurement and Acquisition Policy, answering for the Office of the Under Secretary of
Defense for Acquisition, Technology, and Logistics, partially concurred with our
recommendation that senior officials and program managers coordinate with DCAA to
ensure the surveillance of contract costs. The Acting Director stated that contracting
personnel should contact DCAA when assistance is required, rather than requiring
upfront coordination on all contracts. The Acting Director also partially concurred to
coordinate with contract and program personnel and DCAA to avoid duplication of
voucher reviews for all cost-reimbursement and time-and-materials service contracts.
The Acting Director stated that his office would issue guidance that defines the roles and
responsibilities of contract administration personnel, program office personnel, and
DCAA. The Acting Director also disagreed with listing contract administration
personnel roles and responsibilities within contract Section G, “Contract
Administration.” The Acting Director stated that DoD guidance will be issued that
defines contract administration personnel roles and responsibilities; therefore, listing
roles and responsibilities in every contract is duplicative and inefficient. However, the
Acting Director stated that deviations from DoD guidance would require the defining of
roles and responsibilities within Section G of the contract.

Though the Acting Director of Defense Procurement and Acquisition Policy stated that
upfront coordination of all contracts is not necessary, all parties should conduct upfront
coordination to preclude risks of contractor noncompliance. Listing surveillance
personnel roles and responsibilities within contract Section G of the contract ensures that
contracting officer and oversight personnel are aware of their responsibilities, and the
responsibilities of all personnel and agencies involved with each contract. We request
that the Office of the Under Secretary of Defense for Acquisition, Technology, and
Logistics reconsider his position and provide comments on the final report by November
28, 2005. A discussion of management comments is in the Finding section of the report
and the complete text is in the Management Comments section.




                                             ii
No management comments were received from the Army. We provided a copy of the
draft report on July 25, 2005. We request that the Army Acquisition Executive submit
comments to the final report by November 28, 2005.




                                          iii
Table of Contents

Executive Summary                                                             i

Background                                                                   1

Objectives                                                                   3

Finding
     Surveillance of Contractor Performance and Costs on Service Contracts   4

Appendixes
     A.   Scope and Methodology                                              31
     B.   Prior Coverage                                                     33
     C.   DCAA and DCMA Roles in Contract Surveillance                       35
     D.   Summary of Problems                                                39
     E.   Report Distribution                                                40

Management Comments
     Undersecretary of Defense for Acquisition, Technology, and Logistics    43
     Department of the Navy                                                  47
     Department of the Air Force                                             51
     Defense Information Systems Agency                                      52




                                        1
Background
           Office of Federal Procurement Policy Letter No. 93-1, “Management Oversight of
           Service Contracting,” May 18, 1994, encourages Inspectors General to conduct
           vulnerability assessments of service contracting. This report represents the sixth
           DoD audit of service contracts, but is the first to look exclusively at surveillance
           of service contracts, an area identified as problematic in previous reports. Service
           contracts continue to grow in both dollar amount and significance for DoD
           readiness.

           Service Contract Trends. We judgmentally selected 23 contracts,1 valued at
           $670.4 million, awarded in FY 2003 for this audit. Washington Headquarters
           Services records indicate that from FY 1993 through FY 2004, the cost of DoD
           procurement of goods and services on contracts with a value greater than $25,000
           increased from $123.7 billion to $230.7 billion, an increase of 86 percent. During
           this same time period, the procurement cost of services alone increased from
           $61.9 billion to $127.4 billion, an increase of 106 percent. In FY 2004,
           55 percent of DoD spending for goods and services was spent on service
           contracts. The following figure illustrates the annual growth of DoD procurement
           of services from FY 1993 through FY 2004.

                                                   DoD Procurement of Services
                                    140
                                    120
                Procurement Costs




                                    100
                    (Billions)




                                     80
                                     60
                                     40
                                     20
                                      0
                 Fiscal Year              1993 1994 1995 1996 1997 1998 1999 2000 2001 2002 2003 2004




           Surveillance Overview. Surveillance of contract performance and cost is an
           element of contract administration. Surveillance should start upon the award of
           the contract and continue until contract completion to ensure contractors perform
           required services in compliance with contractual agreements. Methods used for
           DoD contractor surveillance may vary between Military Departments, Defense
           agencies, and Defense contract offices. By DoD directive and regulation, the
           Defense Contract Audit Agency (DCAA) is the contracting officer’s authorized
           representative for analyzing contractor’s cost and accounting systems, and
           provisionally approving interim vouchers. In addition, the contracting officer has
           the authority to designate personnel to assist with the monitoring of other aspects
           of contractor performance including delegation of contract administration
           responsibilities to the Defense Contract Management Agency (DCMA) and
           designation of a contracting officer’s representative (COR).
1
    The term contract includes contract actions, task orders, and modifications.



                                                              1
                  Contracting Officer’s Representatives. Defense Federal Acquisition
           Regulation Supplement (DFARS) 201.6, “Contracting Authority and
           Responsibilities,” October 25, 2002, states that contracting officers handle the
           award and administration of contracts. To assist in administrative duties,
           contracting officers are authorized to designate qualified personnel as CORs. The
           designated CORs must act as the “eyes and ears” for the contracting officer. COR
           responsibilities may include assisting the contracting officer with technical
           monitoring or contract administration. CORs must be properly trained,
           designated in writing, and maintain contract surveillance files. Designation letters
           signed by the contracting officer should specify the extent and limitations of the
           COR authority to act on behalf of the contracting officer.

                   Defense Contract Audit Agency. Under authority of Department of
           Defense Directive 5105.36, “Defense Contract Audit Agency,” February 28,
           2002, DCAA provides DoD contracting components with contract audits and
           financial advisory services in connection with the negotiation, administration, and
           closeout of contracts and subcontracts. DFARS 242.803 “Disallowing Costs
           After Incurrence,” November 9, 1999, states that the contract auditor has the
           authority and responsibility for audit examination and approval for payment of
           vouchers. DCAA, as the contract auditor, has the authority to:

                •   receive vouchers from contractors,

                •   review and provisionally approve interim vouchers2 and submit them to a
                    disbursing office for payment (subject to final audit),

                •   authorize contractors for direct submission of interim vouchers to the
                    disbursing office for contractors with approved billing systems,

                •   audit annual incurred cost submissions and final vouchers prior to contract
                    close out, and

                •   issue Notice of Contract Costs Suspended and/or Disapproved (DCAA
                    Form 1) to deduct costs from vouchers where DCAA believes the
                    contractor has failed to comply with the terms of the contract.

           DCAA operates under the direction and control of the Under Secretary of Defense
           (Comptroller)/Chief Financial Officer and consists of approximately
           4,000 employees located at more than 300 audit field offices throughout the
           United States and overseas. See Appendix C for detailed information related to
           DCAA audits.

                  Defense Contract Management Agency. DCMA performs contract
           administration services for DoD. Specifically, DCMA acts as the DoD contract
           manager, responsible for ensuring Federal acquisition programs, supplies, and
           services are delivered on time, within cost, and meet performance requirements.
           According to Federal Acquisition Regulation (FAR) Part 42.2 “Contract
           Administration Services,” contracting officers have the authority to delegate
           contract administration services to DCMA. The extent of DCMA contract
2
    Vouchers are paid on an interim basis until final payment of the contract is made.



                                                        2
    administration responsibilities is dependent on whether the contracting officer’s
    delegation to DCMA imposed any limitations of responsibility. Barring any
    limitations, DCMA is responsible for all contract administration functions listed
    in FAR Part 42.3 “Contract Administration Office Functions.” DCMA was
    established on March 27, 2000. DCMA operates under authority and direction of
    the Under Secretary of Defense for Acquisition, Technology, and Logistics.
    DCMA employs more than 12,000 people located at 70 contract offices. The
    70 contract offices conduct contract management for more than 900 locations
    worldwide.


Objectives
    Our overall audit objective was to evaluate whether the Government provided
    sufficient contract oversight for service contracts to ensure that contractors
    performed in accordance with the contract. Specifically, we examined whether
    personnel were appointed to monitor contractors’ performance, contractors’ work
    was adequately monitored, contractors performed in accordance with contractual
    obligations, and contractor performance was properly documented for future use.
    We also evaluated the management control programs as they applied to the
    overall objective. See Appendix A for a discussion of the scope and methodology
    and our review of the management control programs. See Appendix B for prior
    coverage related to the audit objectives.




                                        3
                   Surveillance of Contractor Performance
                   and Costs on Service Contracts
                   Contracting officials and requiring activity personnel did not provide
                   sufficient oversight for service contracts to ensure that contractors were
                   performing in accordance with contract specifications. Specifically,

                            •   on 20 of 23 contracts, or 87 percent,3 requiring activity
                                personnel did not develop and implement adequate surveillance
                                plans;

                            •   on 12 of 23 contracts, or 52 percent,3 responsible officials
                                performed insufficient reviews of contractor work billed on
                                vouchers to ensure the supplies and services conform to
                                contract requirements,

                            •   on 13 of 23 contracts, or 57 percent,3 non-DCAA officials were
                                approving vouchers for provisional payments.

                            •   on 10 of 23 contracts, or 43 percent,3 requiring activity
                                personnel did not document contractor past performance for
                                future use in determining best value for contractor selections.

                   In addition, contracting officials used performance-based contracting
                   methods in only 5 of the 23 contracts reviewed, or 22 percent.3

                   This occurred because contracting officials did not prepare quality
                   assurance surveillance plans (QASP) as required by the FAR when
                   contracting for services, and no clear procedures existed that defined the
                   roles and responsibilities of contracting personnel for the review and
                   certification of contractor vouchers. As a result, DoD may be accepting
                   substandard performance by contractors, may be paying for services and
                   items not received, and may be awarding contracts to vendors with a
                   history of substandard performance. Overall, DoD was not assured that
                   contractors complied with the terms of their contracts, or that DoD
                   received the best value when contracting for services.


3
    Judgment sample percentage does not generalize to universe.




                                                     4
Criteria
     Surveillance Requirements. FAR Subpart 46.103, “Contracting Office
     Responsibilities,” provides that contracting offices are responsible for receiving a
     QASP from the requesting activity when contracting for services. FAR
     Subpart 46.103 states:
            contracting offices are responsible for receiving from the activity
            responsible for technical requirements any specifications for
            inspection, testing, and other contract quality requirements essential to
            ensure the integrity of the supplies or services (the activity responsible
            for technical requirements is responsible for prescribing contract
            quality requirements, such as inspection and testing requirements or,
            for service contracts, a quality assurance surveillance plan).

     According to FAR Part 46.4, “Government Contract Quality Assurance,” a QASP
     should be prepared in conjunction with preparation of the statement of work and
     should specify all work requiring surveillance and the method of surveillance.
     FAR Part 46.4 states:
            Government contract quality assurance shall be performed at such
            times (including any stage of manufacture or performance of services)
            and places (including subcontractors’ plants) as may be necessary to
            determine that the supplies or services conform to contract
            requirements. Quality assurance surveillance plans should be prepared
            in conjunction with the preparation of the statement of work. The
            plans should specify – (1) All work requiring surveillance; and (2) The
            method of surveillance.

     FAR Part 37.6, “Performance-Based Contracting,” addresses QASP requirements
     for performance-based service contracts. It requires agencies to develop QASPs
     when acquiring services that contain measurable inspection and acceptance
     criteria corresponding to the performance standards contained in the statement of
     work. The QASPs are to focus on the level of performance required by the
     statement of work, rather than the methodology used by the contractor to achieve
     that level of performance. FAR 37.6 states:
            Agencies shall develop quality assurance surveillance plans when
            acquiring services (see 46.103 and 46.401(a)). These plans shall
            recognize the responsibility of the contractor (see 46.105) to carry out
            its quality control obligations and shall contain measurable inspection
            and acceptance criteria corresponding to the performance standards
            contained in the statement of work. The quality assurance surveillance
            plans shall focus on the level of performance required by the statement
            of work, rather than the methodology used by the contractor to achieve
            that level of performance.

     FAR Part 16.3, “Cost-Reimbursement Contracts,” and FAR 16.6,
     “Time-and-Materials, Labor-Hour, and Letter Contracts” allow for the use of
     cost-reimbursement and time-and-materials contracts only when appropriate



                                                5
           Government surveillance during performance will provide reasonable assurance
           that efficient methods and effective cost controls are used.

           Review and Approval of Contractor Vouchers. DFARS 242.803 states that the
           contract auditor is the authorized representative of the contracting officer for
           receiving and approving interim vouchers for provisional payment. An
           October 2, 2001, memorandum issued by the Principal Deputy Under Secretary of
           Defense, “Public Vouchers,” states that DCAA, as the contract auditor, has the
           authority and responsibility for audit examination and approval for payment of
           contractor vouchers on cost-reimbursement, time-and-materials, and labor-hour
           contracts. In addition, DCAA can authorize a contractor meeting certain criteria
           to submit vouchers directly to the Defense Financial Accounting Service for
           provisional payment using the direct payment process.

                  DCAA Contractor Voucher Reviews. The DCAA prepayment voucher
           review process consists of several key procedures including verifying that the
           vouchers for cost-reimbursement and time-and-materials contracts:4

                    •   reconcile to contract provisions;

                    •   use acceptable billing rates;

                    •   compute interim fees correctly;

                    •   withhold 5 percent of cost, as applicable (if time-and-materials or
                        labor-hour contract); and

                    •   are mathematically accurate.

           Based on the prepayment voucher review, DCAA transmits approved vouchers to
           the Defense Financial Accounting Service for payment.

                    DCAA Approval of Direct Submission of Vouchers for Payment.
           When contractors are authorized to submit interim vouchers directly to the
           Defense Financial Accounting Service for provisional payment, there are no
           requirements for prepayment voucher reviews. The DCAA direct billing
           program allows contractors that maintain adequate billing system internal
           controls, submit timely incurred cost proposals,5 and submit final vouchers in
           accordance with FAR Subpart 52.216-7, “Allowable Cost and Payment,” to
           submit interim vouchers directly to Government paying offices rather than
           submitting vouchers to DCAA for approval. DCAA field offices perform annual
           testing of paid vouchers to ascertain whether contractors’ internal controls remain
           adequate to continue participating in the direct billing program. If a contractor’s
           ability to directly submit vouchers for payment is revoked, DCAA notifies the

4
    Cost-reimbursement contracts provide for payment of allowable incurred costs, to the extent prescribed in
    the contract. Cost-reimbursement contracts are suitable for use only when uncertainties involved in
    contract performance do not permit costs to be estimated with sufficient accuracy to use any type of
    fixed-price contract.
5
    Contractors must submit incurred cost proposals to DCAA within 6 months of the end of their fiscal year.
    The table in Appendix C contains a model of an incurred cost proposal.



                                                       6
contractor immediately. DCAA must also notify the contracting officer and
paying office of the direct submission revocation within 24 hours of informing the
contractor.

Past Performance Requirements. FAR 42.15 “Contractor Performance
Information” states:
       Past performance information is relevant information, for future source
       selection purposes, regarding a contractor’s actions under previously
       awarded contracts. It includes, for example, the contractor’s record of
       conforming to contract requirements and to standards of good
       workmanship; the contractor’s record of forecasting and controlling
       costs; the contractor’s adherence to contract schedules, including the
       administrative aspects of performance; the contractor’s history of
       reasonable and cooperative behavior and commitment to customer
       satisfaction; and generally, the contractor’s business-like concern for
       the interest of the customer . . . . interim evaluations should be prepared
       as specified by the agencies to provide current information for source
       selection purposes, for contracts with a period of performance,
       including options, exceeding one year.

The Office of the Under Secretary of Defense for Acquisition, Technology, and
Logistics (Defense Procurement and Acquisition Policy) issued “A Guide to
Collection and Use of Past Performance Information.” The current version,
issued in May 2003, articulates the key techniques and practices for the use and
collection of past performance information. The publication provides guidance
for both the collection and use of past performance. Contracting offices must
track past performance information for contracts valued at $1.0 million or more.
These assessments must be made as close as practicable to each anniversary of the
effective date of the contract; however, the agencies shall determine the specific
dates. A best practice is to include performance expectations in the
Government’s and contractor’s initial post-award meeting.

Performance-Based Contracting Requirements. In a memorandum to the
Secretaries of the Military Departments, and the Directors, Defense agencies,
dated April 5, 2000, the Under Secretary of Defense for Acquisition, Technology,
and Logistics established that a minimum of 50 percent of service acquisitions,
measured both in dollars and actions, should be performance-based by the year
2005. Guidance provided with the memorandum stated that:
       In essence, PBSAs [performance-based service acquisitions] should
       articulate clear, measurable requirements emphasizing quantifiable
       outcomes, with compensation based on performance measured against
       those outcomes, and integrated with a quality assurance surveillance
       plan describing how suppliers’ performance will be evaluated against
       those measurable requirements.

FAR Subpart 37.601, “Performance-Based Contracting,” prescribes the policies
and procedures for use of performance-based contracting methods. FAR Subpart
37.601 states:




                                           7
                    Performance-based contracting methods are intended to ensure that
                    required performance quality levels are achieved and that total payment
                    is related to the degree that services performed or outcomes achieved
                    meet contract standards.

           Performance-based statements of work should be prepared for all performance-
           based contracts. Performance-based contracting should use competitive
           negotiations to ensure selection of services that offer the best value to the
           Government, and use contract types that are most likely to motivate contractors to
           perform at optimal levels. Performance-based contracting should be incorporated
           into follow-on and repetitive requirements where agencies can rely on experience
           gained and create firm-fixed-price contracts for these requirements for services.

           Management Control Program Requirements. DoD Directive 5010.38,
           “Management Control (MC) Program,” August 26, 1996, and DoD
           Instruction 5010.40, “Management Control (MC) Program Procedures,”
           August 28, 1996, require DoD organizations to implement a comprehensive
           system of management controls that provides reasonable assurance that programs
           are operating as intended and to evaluate the adequacy of the controls.


Contract Oversight
           Of the 23 contracts reviewed,

                    •   Responsible officials developed required QASPs for 3 contracts,
                        developed inadequate surveillance plans for 6 contracts, and did not
                        develop surveillance plans for 14 contracts;

                    •   Contracting officers or CORs6 made cursory voucher reviews for
                        12 contracts;

                    •   Officials from organizations other than DCAA performed prepayment
                        voucher reviews for 13 contracts;

                    •   Responsible officials inadequately documented and recorded
                        contractor past performance information for 10 contracts; and

                    •   Contracting officers did not use performance-based contracting
                        methods for 18 contracts.

           Table 1 summarizes the contract oversight problems identified during the audit.
           Appendix D identifies the problems for each contract examined.




6
    DCAA was responsible for reviewing and certifying vouchers on 10 contracts in our sample. When
    DCAA has the responsibility to review vouchers, less effort is required by the contracting officers/CORs
    to review vouchers.



                                                       8
                   Table 1. Summary of Contract Oversight Problems

Problem Area                                                  Occurrences/Universe   Percent*
Nonexistent surveillance plan                                        14/23              61
Inadequate surveillance plan                                          6/23              26
Cursory or nonexistent voucher review                                12/23              52
Non-DCAA voucher prepayment review                                   13/23              57
Inadequate recording of past performance                             10/23              43
Nonuse of performance-based contracting methods                      18/23              78

*Judgment sample percentage does not generalize to universe

  Nonexistent and Inadequate Surveillance Plans. Adequate contract oversight
  consists of both creating a plan for surveillance of a contractor’s performance and
  costs based on the complexity of each contract and then performing surveillance
  efforts in accordance with the surveillance plan. To plan surveillance efforts and
  not implement the plan obviously will not provide adequate contract oversight.
  To perform surveillance efforts without a plan also does not provide adequate
  contract oversight because the adequacy of the steps involved is not justified.
  Also, the length of contracts often extends over multiple years, thus increasing the
  likelihood of personnel turnover. If turnover of personnel occurs, there is no
  assurance that the surveillance steps being conducted will continue to be
  conducted through the life of the contract, and there will not be uniform historical
  documentation of the surveillance efforts available for review.

          Nonexistent Surveillance Plans. Fourteen of 23 contracts reviewed did
  not have a surveillance plan. Without a surveillance plan prepared by the
  requiring activity, neither contracting nor oversight officials can determine
  whether contract monitoring efforts are sufficient. Many contracts without
  surveillance plans also had no discernible methods of monitoring contractor
  performance or cost. Following are two examples of contracts reviewed that
  lacked surveillance plans.

                  Fleet and Industrial Supply Center Contract
  N00140-01-C-E403. There were no surveillance plan or performance metrics
  prepared for contract N00140-01-C-E403, a cost-plus-fixed-fee contract action
  with an estimated value of $34.4 million. The Fleet Industrial Supply Center
  Norfolk awarded contract N00140-01-C-E403 to CACI Field Services,
  Incorporated, on October 26, 2000. As stated in the performance-based statement
  of work, the contractor was to provide technical expertise in afloat and deployable
  automated supply management to designated Navy and Marine Corps activities
  through on-site assistance and training, formal training, and database validation,
  correction, and reconciliation. In addition, the performance-based statement of
  work did not include performance metrics. The contracting officer stated that, at
  the time of contract award, including a QASP was not required. However, the
  current FAR requirements for a QASP went into effect in July 1997, more than
  3 years prior to the award of the contract.



                                                 9
Actual on-site monitoring of contractor performance was performed by the
technical point of contact (TPOC) who was officially designated by the COR.
According to the TPOC, surveillance was conducted through observation of
student attendees, feedback from student attendees, and feedback from military
personnel on how contractors were performing on military ships. The TPOC
added that he depended on military personnel to ensure labor hours were correct.
However, the surveillance efforts were not comprehensive and did not provide
assurance that the contractor was adequately performing in accordance with the
contract requirements. The TPOC did not document his surveillance efforts and
was unable to demonstrate that he adequately monitored the contractor
performance. There was no surveillance plan listing the surveillance steps,
frequency of surveillance, and metrics for measuring acceptable contractor
performance. The TPOC had no documentation showing that the training
received had been effective or that automated supply management had improved.
Further, there was no documentation that the TPOC had validated the labor costs
associated with the work, through coordination with the cognizant DCAA audit
office. We reviewed two FY 2003 vouchers amounting to $1.1 million to
evaluate the review process. We found that the vouchers had not been reviewed
before payment because the contractor was approved to participate in the DCAA
direct billing program. Overall, the Navy spent an estimated $34.4 million on this
contract. Documentation should be maintained to show that the contractor
performed satisfactorily and billed DoD accurately for the work performed.

               U.S. Army Intelligence and Information Command Contract
DASC01-02-D-0002. The designated COR did not prepare a surveillance plan or
performance metrics for contract DASC01-02-D-0002, task order 0004, a time-
and-materials contract action worth an estimated $27.2 million. The U.S. Army
Intelligence and Information Command awarded contract DASC01-02-D-0002 to
TASC, Incorporated, on August 7, 2002. The contract had a total dollar value of
$314.1 million. Task order 0004 was issued on October 1, 2002, to TASC,
Incorporated. The requirements under task order 0004 were to be performed at
Fort Belvoir, Virginia; Fort Huachuca, Arizona; Mannheim, Germany; Taegu,
Korea; Fort Shafter, Hawaii; Fort Gordon, Georgia; and Camp Doha, Kuwait.
Approximately 205 contractor personnel performed on this task order.

As stated in the statement of work, TASC, Incorporated, was to provide
information operations system engineering, integration, operational, program
management, and technical support to the Army’s Land Information Warfare
Activity. Although the COR designation letter required the COR to prepare a
QASP for this contract, none had been created. Also, a procurement management
review conducted on the COR by the contracting office on January 21, 2004,
acknowledged that the COR was required to develop a QASP, and recommended
that a QASP be completed and submitted to the contracting officer for approval.
As of our review in June 2004, 1 year and 10 months after contract award, a
QASP had still not been created.

The COR maintained a surveillance file that included a copy of the contract and
task orders, the COR designation letter, contractor monthly status reports,
quarterly technical reviews, and annual in-progress reviews. Contractor
performance was measured by reviewing monthly contractor status reports, and
through feedback from technical task monitors received annually via the task


                                    10
           order performance evaluation sheet. There were seven technical task monitors for
           this contract, one at each of the six regions where work was being performed and
           also a primary technical task monitor. The COR had developed a Task Order
           Performance Evaluation Sheet, and although she considered it to be a surveillance
           plan, it was rather an annual evaluation sheet listing the areas to be evaluated. It
           was cursory and did not describe the methods and frequency of inspections, or the
           metrics for measuring acceptable performance. The technical task monitor
           referred to it as a yearly evaluation checklist and did not consider it to be a good
           evaluation tool.

           Because the contract was a time-and-materials contract with no incentive for the
           contractor to perform efficiently, FAR 16.6 required a more comprehensive
           surveillance effort by the Government. The COR, however, did not demonstrate
           an adequate monitoring of contractor performance. There was no surveillance
           plan and no indication that a comprehensive and systematic surveillance of
           contractor performance occurred.

                    Inadequate Surveillance Plans. Six of the 23 contracts reviewed had
           surveillance plans, but did not develop QASPs to ensure that contractor
           performance and costs were monitored throughout the contracted period of
           performance in a consistent and equitable manner. Those six contracts were
           monitored by Government officials and the surveillance efforts being performed
           at the time of review were adequate to ensure satisfactory contractor performance
           in accordance with the terms of the contract. However, the contract oversight of
           the six contracts was inadequate because the steps being performed were not
           documented in a QASP. An adequate surveillance plan provides the foundation
           for a comprehensive and systematic monitoring of contractor performance and a
           standard against which actual surveillance efforts can be measured. The lack of
           an adequate surveillance plan subjects the Government to greater risk that the
           contractor may not be performing all contractual requirements in accordance with
           the contract terms.

           Although the steps being performed were not documented in a QASP, we did note
           one good example of surveillance. Monitoring efforts for the Captured Enemy
           Ammunition contracts supporting the U.S. Army Corp of Engineers, Engineering
           and Support Center (HNC), Huntsville, Alabama, deserved recognition. Coalition
           Provisional Authority Inspector General7 auditors, located in Iraq, conducted the
           review of these time-and-materials contracts on behalf of the DoD Office of
           Inspector General. Although contractors were performing the work on Captured
           Enemy Ammunition contracts in a war zone, the designated CORs were able to
           demonstrate that they followed the duties as stated in their designation letters.
           The contractors prepared daily Situation Reports to keep all levels of personnel
           informed of the status of the contracts. Government personnel verified time and
           attendance of contractors, and matched factors such as vacation and sick leave
           with contractor-prepared time sheets. All time sheets were reviewed by the U.S.
           Army Corps of Engineers Iraq project manager. Any discrepancies were resolved

7
    The Office of the Special Inspector General for Iraq Reconstruction is the successor to the Coalition
    Provisional Authority Inspector General. Under the law that created the Coalition Provisional Authority
    Inspector General, the office was to terminate 6 months after the Coalition Provisional Authority’s
    dissolution, which occurred June 28, 2004.



                                                      11
before payments were made to the contractor. The CORs maintained adequate
surveillance files and were able to produce contract documentation upon request.
Though productivity was not specifically measured in the short term, Iraq
Captured Enemy Ammunition contract personnel were able to provide a graph
showing that, overall, the contracts were under budget and ahead of schedule.
The only shortcoming noted was that the surveillance plan was not as
comprehensive as a QASP, and surveillance steps were not adequately
documented. This applies to contracts DACA87-00-D-0036, task order 0019;
DACA87-00-D-0037, task order 0033; DACA87-00-D-0038, task order 0035;
and DACA87-00-D-0039, task order 0008.

Quality Assurance Surveillance Plans. Of 23 contracts reviewed, 3 contained
detailed QASPs and had personnel performing adequate contract surveillance
efforts. A QASP provides for more thorough and comprehensive monitoring of
contractor performance. To facilitate effective contract surveillance, Federal
procurement regulations require agencies to develop QASPs for all service
contracts. A QASP is used to measure contractor performance and ensure that the
Government receives the quality of services called for under the contract, paying
only for services received in accordance with the terms of the contract. Requiring
activity officials should prepare QASPs in conjunction with the preparation of the
statement of work. A QASP should specify all work requiring surveillance and
the method of surveillance. The use of a QASP is even more necessary when
dealing with cost-reimbursement and time-and-materials service contracts. These
contracts present the Government with greater risk than firm-fixed-price contracts
because the contractor has less incentive to control costs. To compensate for this
risk, the Government must maintain close surveillance over performance to
ensure that inefficient or wasteful methods are not being used and that the effort is
performed within the estimated cost.

The Electronic Systems Center, Hanscom Air Force Base, Massachusetts; the
Aeronautical Systems Center, Wright-Patterson Air Force Base, Ohio; and the
Naval Air Systems Command, Patuxent River, Maryland; each developed a
QASP for their requirement. The three QASPs each contained performance
standards and metrics for measuring contractor performance in accordance with
the statement of work. The plans described how surveillance personnel were to
compare the contractor’s actual performance with the contract requirements,
including methods and frequency of inspections and criteria for acceptable
performance. The QASPs contained performance objectives and performance
thresholds related to specific statement of work objectives. Methodologies for
contract surveillance differed. For instance, the Government quality assurance
personnel at the Electronic Systems Center and Aeronautical Systems Center
conducted monthly evaluations, while the Naval Air Systems Command
personnel conducted quarterly evaluations for performance objectives. However,
the QASPs provided a comprehensive and systematic method for evaluating the
contractors’ performances and costs. Quality assurance personnel for the three
contracts performed surveillance in accordance with the QASPs and demonstrated
adequate monitoring of contractor performance.

       Electronic Systems Center. Air Force contracting officials at the
Electronic Systems Center, Hanscom Air Force Base, Massachusetts, awarded
contract F19650-02-D-0010 on July 8, 2002, to provide personnel, equipment,


                                     12
           tools, materials, vehicles, supervision, and other items and services necessary to
           perform all civil engineer services, tasks, and functions for Hanscom Air Force
           Base. This cost-plus-award-fee contract had a base year value of $31.5 million
           and included four 1-year options for a total contract value of $156.9 million.

                  Aeronautical Systems Center. Air Force contracting officials at the
           Aeronautical Systems Center, Wright-Patterson Air Force Base, Ohio, awarded
           contract F33601-00-D-P002, task order 5073, on October 1, 2002, to provide an
           uninterrupted continuation of communications and computer systems and services
           to organizations and users relying on the Wright-Patterson Air Force Base
           networks and supported systems and applications. This firm-fixed-price contract
           was valued at $3.5 million, while the estimated price for the entire contract was
           $75.0 million.

                   Naval Air Systems Command. Navy contracting officials at the Naval
           Air Systems Command, Patuxent River, Maryland, awarded contract
           N00019-03-C-0041 on May 19, 2003, for contractor performance applicable to
           logistics support of the F/A-18E/F weapon system and the Advanced Targeting
           Forward Looking Infrared system for the F/A 18A+/C/D/E/F. This cost-plus-
           incentive-fee contract had an estimated value of $57.1 million.

           Review of Contractor Vouchers. Within DoD, the authority to review and
           approve payment of contractors’ vouchers under cost-reimbursement and time-
           and-materials contracts is delegated to DCAA by DFARS 242.803(b) and set
           forth in DoD Directive No. 5105.36. To be paid for services provided to the
           Government, contractors must submit vouchers to DCAA or other payment
           approval authority as allowed by regulation or statute. Before approving the
           vouchers for payment, DCAA uses the process discussed on page 6 of this report
           including periodically, based on risk, reviewing contractor time sheets on a
           random basis, and periodically performing floor checks of contractor employees.8

           DCAA also authorizes contractors to directly submit interim vouchers to the
           Defense Financial Accounting Service for payment when contractors have
           approved billing systems in accordance with DFARS 242.803. Currently, DoD
           policies and procedures do not clearly define the roles and responsibilities of
           contracting officers, CORs, and DCAA, when DCAA is provisionally approving
           interim vouchers for payment or has approved a contractor for direct billing
           submission. The contracting officer or the COR should coordinate any cost issues
           they identify during contract performance with DCAA. Such coordination will
           enable DCAA to determine if such issues are systemic in nature and whether the
           issues impact the adequacy of the contractors’ internal controls. The contracting
           officer should ensure that program officials, such as the COR, are aware of the
           DCAA role in performing oversight of contract costs and related systems, and
           DCAA responsibilities with respect to processing vouchers.

           For 9 of the 23 contracts reviewed, DCAA authorized the contractors for direct
           billing submission and approved vouchers for provisional payment on 1 contract.
           Of the 13 remaining contracts, the contracting officer approved vouchers for

8
    Floor checks are described in Appendix C.



                                                13
payment for 4 contracts, the designated COR for 3 contracts, the technical
monitor for 3 contracts, and DCMA for 3 contracts.

        Cursory or Nonexistent Voucher Reviews. Of the 23 contracts
reviewed, 12 had cursory or nonexistent voucher reviews by the contracting
officers and CORs. Those contracts for which DCAA was responsible for
voucher reviews required less effort by the contracting officers and CORs;
however, those officials were in the best position to assess whether there were
potential problems with contractor performance or labor charges on individual
contracts.

For the 10 contracts for which DCAA was responsible for voucher reviews,
9 contracts were with contractors approved for direct billing submission and
1 contract had vouchers approved by DCAA officials. Under current regulations,
no contracting officer/COR voucher review was required for those contract
actions. However, the contract officer or COR should be familiar with submitted
vouchers to provide greater assurance that the contractor vouchers are valid and
accurate. Our audit found that in 7 instances, the contracting officer/COR
voucher review was cursory; in 2 instances, we could not determine the extent of
the review; and in 1 instance, there was no contracting officer/COR review at all.

For the 13 contracts with vouchers reviewed by other than DCAA officials, the
responsible officials performed cursory voucher reviews for 4 contracts. For the
remaining 9 contracts, non-DCAA personnel performed adequate voucher
reviews on 6 contracts, while we did not review the level of surveillance on the
3 remaining contracts.

               Cursory Review Examples. An example of a contract with a
cursory review is contract DCA200-00-D-5013, task order 0016, a $17.8 million
effort awarded by the Defense Information Technology Contracting Organization
to Computer Science Corporation on January 7, 2003, as part of the Information
Assurance Information Technology Capabilities Contract, or I Assure, multiple-
award requirement. This time-and-materials task order was for the technical
support of Field Security Operations, Combatant Commands, Global Network
Operations and Security Center, and Regional Network Operations and Security
Centers. It provided real-time and near real-time defense information assurance
operations support for the designated areas of responsibility. The total value of
the basic contract was $1.5 billion.

Although the Defense Information Technology Contracting Organization had
created the “I Assure Task Order Guide” that included guidance on the review of
contractor vouchers, the guidance was vague about specific procedures for
validating vouchers. According to the COR, most of the contractor surveillance,
including the review and certification of contractor vouchers, was performed by
the technical monitors whose surveillance efforts focused on performance of the
technical aspects of the task orders and not on cost issues. As part of the voucher
review process, the technical monitor maintained a spreadsheet of all vouchers
submitted by the contractor, as well as copies of the vouchers, and conducted a
cursory review of each voucher to see if the labor hours and labor categories
appeared to be appropriate. Contract surveillance for this contract should include
DCAA prepayment voucher reviews, confirmation of rates, and review of


                                    14
contractor systems to ensure that off-site accounting for costs was proper. This
review process was, however, insufficient without DCAA involvement and
coordination, especially because this was a time-and-materials contract,
necessitating a more in-depth review process that ensured all contractors charged
to the contract were performing as required and that the services received by the
Government met all contractual requirements.

An example of cursory reviews being conducted because of insufficient training is
contract N00140-03-D-H011, a $3.7 million effort awarded by the Fleet Industrial
Supply Center, Norfolk Detachment, Philadelphia, on December 2, 2002, to
Access Systems, Incorporated. The indefinite-delivery, indefinite-quantity labor-
hour contract consisted of a base year with 4 option years. The total estimated
value of the contract base year was $3.7 million, and the total estimated value for
the entire 5 years, including option periods, was $19.1 million. The contract was
for technical, administrative, and clerical services in support of the U.S. Joint
Forces Command in Norfolk, Virginia, and its components in the Tidewater area.

The designated COR was responsible for evaluating the contractor’s certificate of
performance and post-payment review of contractor vouchers (the contractor had
been authorized by DCAA to participate in the direct billing program). The COR
performed a cursory review of the contractor monthly vouchers and then sent a
copy to the TPOCs who provided their concurrence or nonconcurrence of the
costs. There were 15 TPOCs assisting the COR in monitoring the contractor, one
for each task order under the contract. The COR did not know what procedures
the TPOCs used to monitor the contractor performance and costs. There were no
guidelines or procedures provided to the TPOCs for the review of vouchers and
no documentation supporting their efforts. The COR did not adhere to the Naval
Supply Systems Command Contract Administration Plan, which provided specific
contract administration duties related to the procuring contracting office, the
contract administration office, and the COR. The plan included duties required of
the COR in regards to the review and certification of contractor vouchers. The
plan noted that DCAA was responsible for audit verification/provisional approval
of vouchers and final audit of this contract prior to final payment to the
contractor. Although the Contract Administration Plan was an enclosure to her
COR designation letter, the COR stated that she was not aware of it or the
specified duties for reviewing vouchers. The plan stated: “the COR shall
expeditiously review copies of the contractor’s invoices [vouchers], certificate of
performance, and all other supporting documentation to determine the
reasonableness of the billing.” The COR did not adequately review and certify
contractor vouchers. The COR failed to follow prescribed Navy guidance and
relied totally on TPOCs for their concurrence of contractor vouchers without any
documentation of their surveillance efforts. Program officials must be trained in
the necessity to closely coordinate any required reviews of costs in contractor
vouchers with the cognizant DCAA office.

                Direct Pay Example. The Electronic Systems Center contracting
office did not sufficiently review vouchers on delivery order 001 under contract
F19650-02-D-0010, a $3.2 million dollar contract action issued on
March 1, 2003, to provide base sustainment services at Hanscom Air Force Base,
Massachusetts. The contractor, Del Jen, Incorporated, had been authorized to
participate in the direct billing program, and therefore, prepayment reviews of


                                    15
each voucher were not required. However, DCAA floor checks conducted on
July 31, 2003, and August 1, 2003, at the request of the contracting officer, found
several internal control weaknesses with the contractor’s labor timekeeping
system. A follow-up review conducted by DCAA on June 16, 2004, found
recurring deficiencies in the contractor’s timekeeping policies and procedures.
As a result of the deficiencies, DCAA rescinded Del Jen’s ability to participate in
the direct billing program on June 17, 2004. The rescission letter stated that Del
Jen, Incorporated, would receive reinstatement of its ability to submit vouchers
directly to the payment office upon correction of the noted deficiencies and
approval of the cognizant procurement contracting officer. Upon the rescission,
the Electronic Systems Center contracting officer assumed the responsibility for
certifying the contractor vouchers. The contracting officer had no procedures or
guidelines to follow in relation to the prepayment review and certification of
contractor vouchers. The contracting officer reviewed monthly contractor
vouchers and compared them with monthly contractor-generated status reports.
The contracting officer stated that he relied on Electronic Systems Center quality
assurance personnel to validate the billed costs. However, the quality assurance
personnel stated that they did not conduct surveillance of contractor costs, such as
a comparison of actual contractor labor hours and labor categories being charged.
They did not have the training or experience necessary to monitor labor costs.
Once the contracting officer became responsible for reviewing contractor
vouchers, there was not an effective method used to provisionally approve the
payment of contractor costs on this $157.0 million cost-reimbursement contract.
The contracting officer should have coordinated with DCAA so that DCAA could
provide interim approval of contractor vouchers. This example demonstrates a
need to have DCAA involved in the interim approval of vouchers, so as to free up
the contracting officer or COR to apply their expertise in real-time monitoring
and post-payment reviews of contractor performance, while coordinating any
concerns related to costs with DCAA.

         Comprehensive Voucher Reviews. The voucher review procedures
listed in the four HNC Iraqi Captured Enemy Ammunition contracts included
comprehensive procedures pertaining to the review and certification of contractor
vouchers. Even though the work was occurring in Iraq under life-threatening
conditions, program officials were still able to perform a thorough review of
contractor vouchers. Program officials in this instance should be commended for
their ability to accomplish thorough reviews of contractor performance in a war
zone.

HNC awarded contract DACA87-00-D-0036, task order 0019, to USA
Environmental, Incorporated, on August 8, 2003. The basic contract and task
order estimated values were $120.0 million and $65.0 million, respectively. The
task order was for cradle-to-grave management of captured enemy ammunition in
Iraq. Government representatives were responsible for the review and approval
of contractor attendance, as well as conducting analysis of annual leave and sick
leave to ensure the contractor did not charge improper leave to the contract.
Though HNC voucher review guidelines stated that the sample selection was at
the discretion of the COR, the COR did not select random samples, but reviewed
every contractor time card, with the exception of some remote locations. The
COR stated that voucher discrepancies had to be resolved between the contractor



                                     16
and Government before vouchers were approved for payment. CORs were able to
demonstrate the validation of labor hours through the time card reviews.

HNC demonstrated how it established and implemented sound voucher review
guidance to monitor contractor costs. HNC voucher review procedures included
the following steps.

   •   Review and compare contractor-provided voucher backup to support
       services performed for the contract and task orders.

   •   Review vouchers to determine if all costs are allowable and substantiated.
       Government personnel and the contractor discuss all unsubstantiated
       costs. Both parties agree to a resolution to clear up unsubstantiated costs.

   •   Review labor rates to ensure they are in accordance with both the contract
       and task orders. Ensure the contracting officer has approved all contractor
       overtime before payment of costs. In addition, ensure that travel costs,
       including airfares, rental cars, and per diem rates, are in accordance with
       travel regulations.

   •   Perform and document surveillance at least quarterly to ensure the
       contractor is adhering to contract and task order requirements.

   •   Review a random, representative sample of time cards for entry error,
       signatures, proper dates, and contracting officer approval for excessive
       overtime. The program manager has the authority to choose and adjust the
       size of the sample due to error rates and accuracy observed.

   •   Specify whether site staffing totals match the number of employees agreed
       upon in the task order.

While commendable in many respects, HNC failed to make use of DCAA for
prepayment voucher reviews, confirmation of rates, and review of contractor
systems to ensure that off-site accounting for costs was proper. Such
coordination in the future would free up HNC resources to better focus on their
primary areas of expertise—real-time monitoring of contractor activity and post-
payment reviews of contractor performance against cost.

Prepayment Voucher Approval. Although DCAA is assigned the responsibility
under DFARS 242.803(b) as the authorized representative of the contracting
officer for receiving and approving interim vouchers for provisional payment,
officials other than DCAA approved vouchers for payment on 13 of the 23
contracts reviewed. On 9 of the 10 contracts where DCAA approved the
vouchers, contractors were authorized for direct billing submission. DCAA
physically approved vouchers for provisional payment on one contract.

Contracting officers, CORs, or other Government officials should use the services
of DCAA to perform prepayment voucher reviews, and then use the paid
vouchers in their postpayment reviews and on-site monitoring of contractor
performance. If they discover potential issues that impact cost, DCAA should be
notified to ensure that costs claimed on the contract are allowable, allocable, and


                                    17
           in compliance with contract terms. This coordination would also assist in
           identifying any systemic deficiencies in the contractor’s associated accounting
           and billing systems. If DCAA determines that the contractor has claimed and
           been paid for costs not allowable or allocable, a DCAA Form 1 (Notice of
           Contracts Costs Suspended and/or Disapproved) will be issued to immediately
           reduce the contractor’s next voucher by the suspended or disapproved amount. In
           addition, DCAA may perform an examination of the contractor’s systems to
           identify the deficiencies that require corrective action. DCAA would then notify
           contracting officers and contract administration offices of system deficiencies
           identified. DCAA will monitor the status of corrections of the system
           deficiencies until all corrective actions are taken by the contractor and
           subsequently evaluated by DCAA. Only through voucher reviews and real-time
           observations of contractor performance, and post-payment reviews of contractor
           performance against costs by contracting officers or delegates, can there be
           reasonable assurance of effective and efficient surveillance of contractor costs and
           performance without duplicating surveillance activities.

           Contractor Past Performance. DoD policy states that contracts worth
           $1.0 million or more with a period of performance greater than 1 year will have
           annual performance assessment reports prepared. Periodically evaluating and
           documenting current contractor performance into an automated past performance
           information system provides valuable input to a contractor’s prior performance,
           which can be an integral part of the “best value” source selection decision in
           future contract awards. It also provides the contractor with added motivation to
           perform at a very high quality because future source selection decisions can be
           greatly impacted by the contractor’s prior level of performance. Additionally, it
           can provide impetus for contractors to improve inadequate performance before
           the next reporting cycle.

           Contract performance had not been adequately recorded for 10 of the 23 contracts
           reviewed during the audit. Past performance information had not been recorded
           and input into the past performance data collection systems for 9 of the
           10 contracts. One contract was not recorded in a timely fashion due to the
           contracting officer’s failure to register the contract in the Contractor Performance
           Assessment Reporting System at the time of contract award. Therefore, past
           performance information could not be input into the system. The contracting
           officer finally registered the contract in the Contractor Performance Assessment
           Reporting System approximately 18 months after contract award, and past
           performance information was input into the system by the COR.

           Performance-Based Contracts. Only 5 of the 23 contracts reviewed
           (22 percent)9 were performance-based acquisitions that included performance-
           based statements of work that enabled assessment of contractor performance
           against measurable performance standards. The 5 contracts had a total value of
           $91.6 million, amounting to 13.7 percent8 of the $670.4 million value of the
           23 contracts reviewed. This falls far short of the 50 percent minimum mandated
           by the Under Secretary of Defense for Acquisition, Technology, and Logistics,
           measured both in dollars and actions by the year 2005. The five performance-
           based contracts were U.S. Army Aviation and Missile Command contract
9
    Judgment sample percentage does not generalize to universe.



                                                     18
    DAAH01-03-C-0042/P0004, valued at $15.0 million; Naval Sea Systems
    Command contract N00024-00-D-6000/GG78, valued at $12.8 million; Naval Air
    Systems Command contract N00019-03-C-0041, valued at $57.1 million;
    Electronic Systems Center contract F19650-02-D-0010/000101, valued at
    $3.2 million; and Aeronautical Systems Center contract F33601-00-D-P002/5073,
    valued at $3.5 million. In addition, one contract had a statement of work that
    stated it was a performance-based statement of work, while another contract was
    considered performance-based by the contracting officer. However, neither of
    these two contracts had statements of work that included measurable performance
    standards, and therefore, were not truly performance-based.


Oversight Guidance
    Because guidance was either lacking or unclear, contracting and requiring activity
    personnel did not prepare QASPs, sufficiently review contractor performance, or
    adequately document how and by whom contract oversight would be conducted.
    In addition, DoD regulation and guidance that was in existence was not
    adequately followed.

    QASP Requirements. Contracting officials were unclear on the requirements for
    a QASP when contracting for services. Contracting officials had varying reasons
    for not preparing QASPs, all of which demonstrated that they did not have a clear
    understanding of the requirements for a QASP when contracting for services.

           •   Five stated that a QASP was not required because the contract was not
               performance-based.

           •   Two stated that a QASP was not prepared because it is not conducive
               to time-and-materials contracts.

           •   One stated that a QASP was not required because the contract was for
               a commercial service.
           •   Two stated that a QASP was not required at the time of contract
               award.

           •   Two did not know why a QASP was not prepared.

    Contracting and requiring activity personnel need to be better informed on the
    requirements for a QASP when contracting for services. FAR Part 46 requires a
    QASP for all service contracts. Contracting offices should not award service
    contracts unless a properly prepared QASP has been received from the requiring
    activity. The Acquisition Executives for the Army, the Navy, and the Air Force,
    and the Director, Defense Information Systems Agency (DISA), must ensure that
    training on the preparation of QASPs is provided to requiring activity personnel.

    Voucher Approval Procedures. Although DCAA has the authority and
    responsibility to review and approve interim vouchers for payment, over half the
    vouchers approved were signed by non-DCAA personnel. DoD policies and


                                        19
procedures are needed to clearly define the roles and responsibilities of DCAA,
the COR, and the program office regarding the review and approval of interim
vouchers. Contracting officials were unclear on their responsibilities regarding
voucher reviews due to an October 2, 2001, memorandum issued by the Principal
Deputy Under Secretary of Defense entitled “Public Vouchers.” The
memorandum states that DCAA has the authority and responsibility for audit
examination and approval for payment of vouchers. The memorandum instructs
DoD Components to “stop requiring contractors to submit detailed cost
information as part of the billing process.” This guidance should be expanded to
provide clear guidelines for contract risk assessment, responsibility for voucher
reviews, and the roles of contracting officers and CORs.

At the time of preparing the QASP, the contracting office and program office
must work together in coordination with the cognizant DCAA audit office to first
assess the risk of contractor noncompliance and then devise an adequate
surveillance plan, which addresses the types and frequency of reviews of
contractor costs. Comprehensive plans are required for all cost-reimbursement,
time-and-materials, and labor-hour contracts.

 DCAA contractor audits play a significant role in ensuring contract costs claimed
and billed are allowable, allocable, and reasonable. When DCAA is reviewing
contract vouchers, the contracting and program offices still need to monitor
contractors’ performance and technical efforts and their relationship to costs as
part of their overall surveillance responsibilities. In addition, contracting officers
or appointees should coordinate with DCAA and report contract cost issues that
may be disclosed in the course of their normal surveillance activities. On cost-
reimbursement and time-and-materials contracts, the contracting officer and COR
are in the best position to monitor contract performance, technical and quality
issues, and their relationship to costs. DCAA has been authorized the review and
approval responsibilities for interim vouchers, including situations where they
have authorized the contractor for direct billing submission. The contracting and
requiring activity personnel should confer with DCAA to ensure that the auditors
are aware of cost or system issues disclosed by on-site surveillance. Having the
contracting officer or COR complementing DCAA efforts in the contract review
process will provide greater assurance that contractor costs are accurate and in
accordance with the contract requirements. If DCAA audits find problems with
the contract controls on contractors approved to submit vouchers directly to a
paying office (as in the Electronic Systems Center contract F19650-02-D-0010),
the contracting officer should serve to facilitate contractor correction of the noted
problems.

Documenting Surveillance Roles and Responsibilities. Contracting officers
usually appointed representatives to monitor contractors’ performance for service
contracts reviewed. However, for 10 of the 23 contracts reviewed, the duties and
responsibilities of surveillance personnel were not clearly stated. In addition, for
13 contracts reviewed, the surveillance personnel did not perform the general
duties that were listed in the contract. For example, the Defense Information
Technology Contracting Organization had task order guidance for contracts
DCA200-02-D-5006, DCA200-00-D-5013, and DCA200-00-D-5014 that held the
task monitor responsible for developing a surveillance plan. However, a
surveillance plan was not developed for the contract actions. The Defense Supply


                                     20
    Service-Washington had guidance that required the COR to develop and
    implement a surveillance plan for each delivery order. There were no
    surveillance plans, and the COR had no knowledge as to how surveillance was
    being conducted. The U.S. Army Intelligence and Information Command
    contract DASC01-02-D-0002 included a COR designation letter that required the
    COR to develop a QASP; however, none was developed.

    In addition, 9 of the 23 contracts had been approved for participation in the direct
    billing program. In one of those instances, the contracting officer thought the
    contractor vouchers were being reviewed and approved by DCMA; while in
    another instance, the contracting officer thought the vouchers were being
    reviewed and approved by the COR when both contractors were actually
    authorized by DCAA for direct billing submission. Therefore there was no
    requirement for voucher review. The roles and responsibilities of all surveillance
    personnel should be clearly stated in DoD policies and procedures. The
    contracting officer and oversight personnel should understand their
    responsibilities and the responsibilities of all personnel and agencies involved
    with each contract including the specific responsibilities of DCAA and DCMA.


Management Control Program Review
    Military Departments and DISA contract activities had material management
    control weaknesses because they did not effectively implement the prescribed
    requirements of the DoD Management Control Program (MCP). Of the
    11 activities visited, 4 did not report contract administration as an assessable unit.
    One stated that its office was not required to prepare an MCP, and another did not
    provide the audit team MCP information. Although the other five organizations
    did report contract administration as an assessable unit, their programs did not
    contain basic controls that would have precluded contracting officials and
    requiring activity personnel from performing insufficient oversight of service
    contracts.
    Scope of the Review of the Management Control Program. We reviewed
    management control procedures related to contract actions awarded for four major
    service categories: Other ADP and Telecommunication Services (Service
    Category Code D-399), Hazardous Substance Removal/Cleanup/Disposal
    (Service Category Code F-108), Logistics Support Services (Service Category
    Code R-706), and Facilities Operations Support Services (Service Category
    Code S-216). We were concerned about whether the Government provides
    sufficient contract oversight for service contracts. We specifically reviewed
    Government surveillance and past performance. We reviewed management’s
    self-evaluation applicable to these controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for the Military Departments and DISA, as defined by DoD
    Instruction 5010.40. Military Department and DISA management controls for
    surveillance were not adequate to ensure that duties and responsibilities, including
    surveillance plans, were adhered to. Also, past performance controls were not
    adequate to ensure the recording of past performance evaluations. The identified


                                         21
      weaknesses were due to Military Departments and DISA not effectively
      implementing the prescribed requirements of the DoD MCP. Of the 11 activities
      visited, the U.S. Army Intelligence and Security Command; Naval Air Systems
      Command; Defense Information Technology Contracting Office; and Material
      Systems Group did not report contract administration as an assessable unit. The
      Fleet and Industrial Supply Center stated that its office was not required to
      prepare an MCP, and the U.S. Army Corp of Engineers Engineering and Support
      Center, Huntsville did not provide the audit team MCP information. Although the
      U.S. Army Aviation and Missile Command; Naval Sea Systems Command;
      Electronic Systems Center; Aeronautical Systems Center; and Defense Contract
      Command-Washington reported contract administration as an assessable unit,
      their programs did not contain basic controls that would have precluded
      contracting officials and requiring activity personnel from performing insufficient
      oversight for service contracts. See Table 2 for a summary of contract activities
      MCP deficiencies identified during the audit. Recommendations 1.d. and 2.b., if
      implemented, will improve procedures that the Military Departments and DISA
      use for contract administration functions. A copy of the report will be provided to
      the senior officials responsible for management controls in the Military
      Departments and DISA.

               Table 2: Summary of Management Control Program Deficiencies

                                   No Contract                                                        No Contract
                                  Administration                 No Surveillance/Past              Administration Risk
Activity*                         Assessable Unit                 Performance Steps                  Assessments
AAMCOM                                                                   X                                 X
ASC                                        X                             X                                 X
DITCO                                      X                             X                                 X
ESC                                                                      X                                 X
INSCOM                                     X                             X                                 X
MSG                                                                      X                                 X
NAVAIR                                     X                             X                                 X
NMCI                                                                     X                                 X
  Totals                                    4                             8                                8


AAMCOM              U.S. Army Aviation and Missile Command
ASC                 Aeronautical System Center
DCCW                Defense Contract Command-Washington
DITCO               Defense Information Technology Contracting Office
ESC                 Electronic Systems Center
FISC                Fleet and Industrial Supply Center
HNC                 U.S. Army Corps of Engineers Engineering and Support Center, Huntsville
INSCOM              U.S. Army Intelligence and Security Command
MSG                 Material Systems Group
NAVAIR              Naval Air Systems Command
NMCI                Navy Marine Corps Intranet

*There were a total of 11 activities visited. The other 3 were not listed in the table because HNC did not provide an MCP, FISC
was not required to prepare an MCP, and DCCW provided all of the MCP information requested.



                                                            22
Conclusion
    Monitoring contractor performance and costs is essential to protecting the
    interests of the Government. By assuring that contracted products and services
    meet the performance standards set forth in contracts, and that prices are
    reasonable, accurate, and within the scope of the contract, Government officials
    fulfill their fiduciary responsibilities. Service contracts awarded on a cost-
    reimbursement or time-and-materials basis require special vigilance during
    contract performance to ensure the Government receives good value. Failure by
    contracting and requiring activity personnel to sufficiently monitor the contractor
    subjects the Government to greater risk of substandard contractor performance,
    increased costs, and continued contractual relationships with nonperforming
    contractors.

    The FAR only allows for the use of cost-reimbursement and time-and-materials
    contracts when appropriate Government surveillance during performance will
    provide reasonable assurance that efficient methods and effective cost controls are
    used. The best method to provide reasonable assurance of quality performance
    within budget guidelines is to develop a QASP while developing the contract
    statement of work. Military and Defense agencies should ensure that requiring
    activity personnel are properly trained in the preparation of QASPs, and that
    QASPs are prepared for all service contracts. In addition, ensuring that
    surveillance duties and responsibilities are clearly defined in DoD policies and
    procedures and are adequately performed will improve management and oversight
    of service contracts.

    Finally, the failure to record contractor past performance information into an
    automated past performance data collection system deprives the Government of a
    valuable tool for making best value decisions in future contract awards.
    Management controls need to be implemented to ensure that past performance
    information is being recorded and inputted into past performance information
    systems on a timely basis.


Management Comments on the Finding and Audit Response
    Under Secretary of Defense for Acquisition, Technology, and Logistics
    Comments. The Acting Director, Defense Procurement and Acquisition Policy,
    provided comments for the Office of the Under Secretary of Defense for
    Acquisition, Technology, and Logistics. The Acting Director stated that Table 2,
    “Voucher Summary,” of the Finding was misleading. Specifically, the Acting
    Director stated that the table and subsequent explanatory paragraphs confused the
    concepts and responsibilities associated with the prepayment review of vouchers
    with the program monitoring and surveillance functions that would typically
    occur during postpayment analysis. As a result, the table did not clearly illustrate
    who performed the prepayment reviews because the table included personnel who


                                         23
conducted surveillance monitoring activities. Therefore, the Acting Director
recommended that both the “Direct Pay Submission” and “DCAA” columns be
deleted from the table.

The Acting Director, Defense Procurement and Acquisition Policy, disagreed that
officials were unclear on their responsibilities regarding voucher reviews due to
an October 2, 2001, memorandum issued by the Principal Deputy Under
Secretary of Defense. The memorandum states that DCAA has the authority and
responsibility for audit examination and approval of vouchers. The Acting
Director added that the memorandum reduced duplicate contractor data
submissions that were being required by DoD contracting personnel, thereby
saving the contractor and DoD significant monies. The Defense Procurement and
Acquisition Policy suggested the removal of this comment from the report.

Auditor Response. We deleted Table 2, “Voucher Summary,” of the revised
draft report. Table 3, “Summary of Management Control Deficiencies,” is now
labeled as Table 2.

The October 2, 2001, memorandum issued by the Principal Deputy Under
Secretary of Defense, “Public Vouchers,” states that DCAA has the authority to
“approve and sign public vouchers, or authorize a contractor to submit vouchers
directly to the disbursing office for payment.” However, many contracting
personnel were unclear of the resultant roles and responsibilities of the
contracting officer, the contracting officer’s representative, and DCAA when
DCAA is approving vouchers for payment. Some contracting office personnel
thought this memorandum absolved the contracting officer of all responsibility
concerning contract voucher reviews. Since there is no guidance that states
DCAA has sole responsibility to certify vouchers for payment, non-DCAA
officials approve vouchers for payment on many contracts. More than half of the
contracts reviewed in our judgmental sample had non-DCAA officials reviewing
vouchers.

Navy Comments. The Chief of Staff/Policy for the Deputy Assistant Secretary
of the Navy (Acquisition Management) made the following comments regarding
the contracts reviewed.

•   Contract N00019-00-0183/P00031 is a Fixed-Price/Incentive-Fee supply
    contract for the production and delivery of aircraft. Therefore, the contract
    should be removed from the audit report.

•   Contract N00019-03-C-0041 contains provisions for direct invoicing to the
    Defense Finance and Accounting Service as part of the DCAA Direct
    Submission program. Therefore, the contract does not require invoice
    reviews. Also, the Chief of Staff/Policy added that the contract was entered
    into the Contractor Performance Assessment Reporting System in July 2003.

•   Contract N00024-00-D-6000 was transferred from the Navy and Marine
    Corps Intranet to the Space and Naval Warfare Systems Command for post-
    award administration. The Chief of Staff/Policy recommended that the DoD
    Inspector General coordinate with the Space and Naval Warfare Systems



                                     24
       Command to assess surveillance for the Navy and Marine Corps Intranet
       contract.

    Audit Response. We reviewed contract action N00019-00-0183/P00075, not
    contract action N00019-00-C-0183/P00031. Contract action N00019-00-C-
    0183/P00075 is a Cost-Plus-Fixed-Fee contract with an estimated value of
    $40.1 million. The Naval Air Systems Command awarded this Cost-Plus-Fixed-
    Fee contract for the sustainment of logistics resources for the V-22 end item. We
    did not remove the Cost-Plus-Fixed-Fee contract from the audit report.

    Surveillance personnel must monitor DCAA post approved vouchers to provide
    greater assurance that contractor performance is in accordance with contract
    specifications, and notify DCAA of any cost issues that arise from reviews.
    When contract past performance information was requested at the Naval Air
    Systems Command, the Program Management Analyst was unable to locate
    information within the Contractor Performance Assessment Reporting System.
    Since requiring activity personnel did not provide us with requested past
    performance documentation, we concluded that past performance information was
    inadequately inputted and recorded into Contractor Performance Assessment
    Reporting System.

    We interviewed both Navy and Marine Corps Intranet and Space and Naval
    Warfare Systems Command personnel regarding surveillance for the Navy and
    Marine Corps Intranet contract. Both requiring activities provided information on
    the delineation and performance of surveillance duties. CORs at the Space and
    Naval Warfare Systems Command are responsible for the review and certification
    of contractor vouchers. The Lead COR delegation letter at the Space and Naval
    Warfare Systems Command states that COR responsibilities include the
    certification of contractor vouchers to document that all charges are consistent
    with performance requirements. However, the Space and Naval Warfare Systems
    Command Lead COR assigned to the contract informed us that Space and Naval
    Warfare Systems Command CORs are not responsible for monitoring contractor
    performance. Rather, the Navy and Marine Corps Intranet Performance
    Management Division and the Army Information Systems Engineering Command
    monitor contractor performance.


Recommendations, Management Comments, and Audit
  Response
    We have revised this report to conform to oral comments made by the Defense
    Contract Audit Agency (DCAA) regarding the draft report during a meeting that
    took place August 19, 2005. DCAA comments integrated in this report were
    written to a revised draft report. In addition, we added Recommendations 3.
    and 4. as a result of the DCAA comments.

    1. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics:




                                        25
       a. Emphasize to senior contracting officials and program managers
the requirement to develop quality assurance surveillance plans for
monitoring contractor performance and costs of service contracts. The plans
must be prepared in conjunction with the preparation of the statement of
work and must specify all work requiring surveillance. The plan should
include coordination with DCAA to ensure surveillance activities involving
contract costs, such as floor checks, will be performed to the extent and
frequency deemed necessary.

Management Comments. The Acting Director, Defense Procurement and
Acquisition Policy, partially concurred and stated that the Defense Acquisition
University has developed an extensive module on QASPs for implementation into
the Defense Acquisition Workforce Improvement Act Level II Contracting
Courses. Also, the Office of Defense Procurement and Acquisition Policy will
assist the Defense Acquisition University with the inclusion of QASP training
into their new online Contracting Officer Technical Representative training
course. The new Contracting Officer Technical Representative training course is
scheduled for release during the second quarter of FY 2006. Furthermore,
guidance on surveillance activities of contract costs will be issued that
emphasizes the need for contracting personnel to contact DCAA during contract
performance when floor checks or other surveillance activities involving contract
costs are needed. However, the Acting Director stated it is not efficient or
practical to require contracting personnel to contact DCAA each and every time a
QASP is developed. DCAA personnel are available to assist the contracting
officer with contract performance when requested. The Acting Director stated
that contracting personnel requiring DCAA assistance should request assistance
when required, rather than requiring coordination upfront on each and every
contract.

Auditor Response. To assess the surveillance required for an individual
contract, contracting personnel should, at a minimum, assess whether the
contractor has been authorized for direct submission of interim vouchers to a
payment office and the amount of oversight DCAA has performed on that
contractor during the past year. DCAA can provide this information many ways,
whether through automation or other methods. However, currently this
information is difficult to obtain and not used by contracting offices. In addition,
we disagree with the Acting Director, Defense Procurement and Acquisition
Policy that DCAA should not be part of each QASP development effort, but that
DCAA will handle problems as they occur. We believe that having coordination
upfront in the process is more efficient and effective than waiting for cost
problems as they occur. In accordance with FAR Part 46.4, a QASP should be
prepared for each service contract in conjunction with the statement of work, and
should specify all work requiring surveillance and the method of surveillance.
Factors influencing the work requiring surveillance and the method of
surveillance include the complexity of work and contract type. All parties should
conduct upfront coordination to develop strategies to assess risks of contractor
noncompliance and then devise a surveillance plan to mitigate these risks.
Requiring activity officials and DCAA should coordinate during the preparation
of the statement of work and surveillance plan to ensure that there is a clear
understanding of their specific responsibilities and restrictions for the monitoring
of contractor performance. Upfront planning will increase the likelihood that the


                                     26
Government receives services in compliance with contract specifications and that
DCAA does not find itself overwhelmed because of unforeseen workload surges.
Accordingly, we request the Acting Director to reconsider the recommendation
and provide comments on the final report.

      b. Ensure that program office officials are sufficiently trained on the
preparation of quality assurance surveillance plans for service contracts that
emphasize the use of metrics for measuring contractor performance.

Management Comments. The Acting Director, Defense Procurement and
Acquisition Policy, concurred and stated that the Defense Acquisition University
developed an extensive module on QASPs for addition into the Defense
Acquisition Workforce Improvement Act Level II Contracting Courses.
Furthermore, the Defense Procurement and Acquisition Policy will assist the
Defense Acquisition University with the inclusion of QASP training into its new
online Contracting Officer Technical Representative training course. This course
is scheduled for release during the second quarter of FY 2006

      c. To avoid any duplication of effort, ensure that contract and
program office personnel coordinate with the DCAA office that has
responsibility for voucher review for all cost-reimbursement and time-and-
materials service contracts.

Management Comments. The Acting Director, Defense Procurement and
Acquisition Policy, partially concurred and stated that they will issue guidance in
the Defense Federal Acquisition Regulation Summary Procedures, Guidance, and
Information Web site that defines the roles and responsibilities of contract
administration personnel, program office personnel, and DCAA. The Director
added that the guidance will instruct contract and program office personnel to
coordinate with DCAA if they identify any issues involving costs submitted on
public vouchers. The guidance should be effective during the second quarter of
FY 2006.

       d. Issue a policy that clearly defines the roles and responsibilities of
contract personnel to include monitoring contractor performance, and
reviewing and approving interim contractor vouchers.

Management Comments. The Acting Director, Defense Procurement and
Acquisition Policy, concurred and added that his office will issue guidance in the
Defense Federal Acquisition Regulation Summary Procedures, Guidance, and
Information Web site that clearly defines the roles and responsibilities of contract
personnel regarding the review and approval of interim vouchers, and the use of
vouchers in monitoring contractor performance. The guidance should be released
during the second quarter of FY 2006.

       e. Establish a requirement that contracting officers clearly define the
roles and responsibilities of contract administration personnel within
contract Section G, “Contract Administration Data,” to include:

             (1) contract and program office personnel responsible for
monitoring contractor performance;


                                     27
               (2) personnel responsible for auditing contractor systems and
costs, and reviewing and approving interim contractor vouchers; and

             (3) other DoD organizations including the Defense Contract
Audit Agency and the Defense Contract Management Agency.

Management Comments. The Acting Director, Defense Procurement and
Acquisition Policy, partially concurred and stated FAR 14.201-2 and 15.204-2
requires Section G, “Contract Administration Data,” to include any required
accounting and appropriation data and any required contract administration
information or instructions other than those on the solicitation form. The Acting
Director added that the response to Recommendation 1.d. noted that the Defense
Procurement and Acquisition Policy Office agreed to issue DoD guidance to
contracting personnel. The DoD guidance will be issued in the Defense Financial
Acquisition Regulation Summary, Procedures, Guidance, and Information Web
site and will define the roles and responsibilities of contracting personnel. The
Acting Director added that it would be duplicative and inefficient to also require
that the defined roles and responsibilities be included within each and every
contract. However, the Acting Director stated that if and when a deviation from
the guidance is permitted (the guidance will define such circumstances),
contracting officers will be required to define the roles and responsibilities in
Section G of the contract.

Audit Response. The roles and responsibilities should be defined within contract
Section G, “Contract Administration Data.” In one instance the contracting
officer thought DCAA reviewed and approved vouchers; while in another
instance, the contracting officer thought the COR reviewed and approved
vouchers. In both instances DCAA approved the contractors for direct billing
submission. Listing the roles and responsibilities of surveillance personnel within
Section G, “Contract Administration Data,” would ensure that the contracting
officer and oversight personnel are aware of their responsibilities, and the
responsibilities of all personnel and agencies involved with each contract,
including the specific responsibilities of DCAA and DCMA. The taxpayer
expects the Government to verify that efforts contracted for are actually
performed. Including all parties’ roles and responsibilities within Section G,
“Contract Administration Data,” will assist in ensuring that surveillance activities
are followed. Accordingly, we request the Acting Director of the Defense
Procurement and Acquisition Policy reconsider the recommendation and provide
comments on the final report.

2. We recommend that the Acquisition Executives for the Army, the Navy,
and the Air Force, and the Director, Defense Information Systems Agency:

      a. Ensure that program office personnel receive training on the
preparation of quality assurance surveillance plans that include metrics for
measuring contractor performance when contracting for services.

Army Comments. We provided a copy of the draft report to the Auditor
General, Department of Army, on July 25, 2005. No comments have been
received. We request that the Acquisition Executive for the Army make
comments on the final report by November 28, 2005.


                                     28
Navy Comments. The Deputy Assistant Secretary of the Navy (Acquisition
Management) concurred with the recommendation. The Deputy Assistant
Secretary stated performance-based procedures for the acquisition of services is
addressed in the Department of the Navy “Performance-Based Service
Acquisition Implementation Plan” training. The Navy will reiterate the training
requirements to ensure that members of acquisition teams complete Performance-
Based Service Acquisition Implementation training prior to efforts necessary to
define the requirement, develop an acquisition strategy, or prepare the statement
of objectives.

Air Force Comments. The Assistant Secretary of the Air Force (Acquisition)
concurred with the recommendation, while recommending the term “requirement
personnel” replace “program office personnel” because operational Air Force
units, which are the majority of Air Force organizations, do not have program
offices. In addition, the Assistant Secretary stated the Air Force will rely on the
Defense Acquisition University to provide the required training. The Defense
Acquisition University is currently in the process of developing a new course,
ACQ 265, “Mission Focused Service Acquisition,” that includes QASP training.

Defense Information Systems Agency Comments. The Director for
Procurement and Logistics, Defense Information Technology Contracting
Organization, concurred with the recommendation. In addition to ensuring that
program and contracting personnel receive appropriate training for quality
assurance surveillance plans, DISA published Component Acquisition Executive
Guideline number 1, “Acquisition of Services,” in July 2005. This will serve as
an additional training source.

Audit Response. All management comments that were received were responsive.
We replaced “program office personnel” with “requirement personnel” within all
areas of the report that are applicable to the Air Force. We request that the Army
Acquisition Executive respond to the final report by November 28, 2005.

       b. Develop and employ management controls to ensure that
surveillance duties and responsibilities are adequately performed and
documented, including the recording and input of past performance
information into past performance information systems on a timely basis.

Army Comments. We provided a copy of the draft report to the Auditor
General, Department of Army, on July 25, 2005. No comments have been
received. We request that the Acquisition Executive for the Army make
comments on the final report by November 28, 2005.

Navy Comments. The Deputy Assistant Secretary of the Navy (Acquisition
Management) concurred with the recommendation. The Navy will develop
management controls to ensure that contract surveillance, including recording and
inputting of past performance data, is properly completed.

Air Force Comments. The Assistant Secretary of the Air Force (Acquisition)
concurred with the recommendation, while adding that the Air Force recently
implemented revised surveillance duties and controls within the Air Force
Acquisition Regulation Supplement. The Assistant Secretary of the Air Force


                                    29
also stated the Air Force has an established surveillance system in place for the
recording and inputting of past performance information into the past
performance information system.

Defense Information Systems Agency Comments. The Director for
Procurement and Logistics, Defense Information Technology Contracting
Organization, concurred with the recommendation. DISA will add surveillance
duties and responsibilities, including the recording and input of past performance
information, to its internal management control plans. In addition, the
requirements of FAR Part 46, addressing quality assurance surveillance plans,
will be added to the DISA internal Procurement Management Reviews of
contracting organizations. DISA will also revise its Contracting Officer’s
Representative designation letters to ensure a more comprehensive understanding
of roles and responsibilities.

Audit Response. All management comments that were received were responsive.
We request that the Army Acquisition Executive respond to the final report by
November 28, 2005.

3. We recommend that the Commander, U.S. Army Corps of Engineers,
Engineering and Support Center, Huntsville, consider the use of DCAA for
prepayment voucher approvals, confirmation of rates, and review of
contractor systems to ensure that off-site accounting for costs is proper.

4. We recommend that the Chief, Defense Information Technology
Contracting Organization, Scott Air Force Base, consider the use of DCAA
for prepayment voucher approvals, confirmation of rates, and review of
contractor systems to ensure that off-site accounting for costs is proper.




                                     30
Appendix A. Scope and Methodology
   This audit was performed as a self-initiated risk benefit assessment. Using the
   Defense Contract Acquisition Reporting System, we judgmentally selected
   23 contracts awarded during FY 2003. We used judgmental sampling to limit the
   number of sites visited and to ensure that we selected only contracts valued at
   more than $1.0 million. The 23 contracts selected had an estimated value of
   $670.4 million. We focused on four major service categories, each containing a
   FY 2003 annual value greater than $1.0 billion: Other ADP and
   Telecommunication Services (Service Category Code D399), Hazardous
   Substance Removal/Cleanup/Disposal Services (Service Category Code F108),
   Logistics Support Services (Service Category Code R706), and Facilities
   Operations Support Services (Service Category Code S216). Our audit included
   the following steps.

       • Determine whether contracting officers officially designated CORs in
   writing to monitor contractor performance. Also, determine whether contracting
   officers are involved in monitoring contractor performance including the review
   of contractor vouchers.

       • Determine how the Government performed surveillance on contract
   actions selected for review and whether the surveillance was adequate.

       • Determine whether the Government was properly recording past
   performance information for future use.

   We performed these steps by:

      •   reviewing contract and surveillance documentation such as basic contracts
          and their task orders or modifications, COR and task monitor designation
          letters, statements of work, surveillance plans, time sheets, vouchers, and
          Performance Assessment Reports;

      •   meeting with contract and program office personnel, CORs, and task
          monitors;

      •   meeting with DCAA and DCMA officials to discuss their respective roles
          in the contract surveillance process;

      •   meeting with an Under Secretary of Defense for Acquisition, Technology
          and Logistics official to discuss an October 2001 Deputy Under Secretary
          of Defense memorandum regarding public vouchers; and

      •   coordinating with the Coalition Provisional Authority Inspector General in
          Baghdad, Iraq, to conduct site visits for contracts where work is being
          completed in Iraq.

   The audit was conducted by visiting the following sites: the Defense Contract
   Command–Washington in Arlington, Virginia; the U.S. Army Intelligence and
   Security Command at Fort Belvoir, Virginia; the U.S. Army Aviation and Missile


                                      31
Command at Redstone Arsenal, Alabama; the U.S. Army Corps of Engineers
Engineering and Support Center in Huntsville, Alabama; the Naval Sea Systems
Command in Arlington, Virginia; the Defense Information Technology
Contracting Office at Scott Air Force Base, Illinois; the Fleet and Industrial
Supply Center in Philadelphia, Pennsylvania; the Naval Air Systems Command in
Patuxent River, Maryland; the Electronic Systems Center at Hanscom Air Force
Base, Massachusetts; and the Materiel Systems Group and Aeronautical Systems
Center at Wright-Patterson Air Force Base, Ohio. The Coalition Provisional
Authority Inspector General performed field work at the U.S. Army Corps of
Engineers Camp Victory, Iraq; U.S. Army Corps of Engineers Arlington Depot,
Iraq; and U.S. Army Corps of Engineers Paladin Depot, Iraq.

We performed this audit from May 2004 through July 2005 in accordance with
generally accepted Government auditing standards.

Limitation of Scope. We did not validate the extent of voucher reviews for U.S.
Army Aviation and Missile Command contracts DAAH01-03-C-0042,
DAAH23-00-C-0030, and DAAH23-00-C-0226; Aeronautical Systems Center
contract F33657-01-C-5063, modification P00031; and Naval Air Systems
Command contract N00019-00-C-0183. This information was not validated
because we were unable perform site visits and meet with designated surveillance
personnel and DCMA officials prior to completion of the field work.

Use of Computer-Processed Data. Although we relied on data retrieved from
the Defense Contract Acquisition Reporting System during the audit, we did not
evaluate the general and application controls relating to this information system
that processes contract reports. We used the Defense Contract Acquisition
Reporting System only as a starting point to obtain the universe data and contract
actions selected. Therefore, we did not evaluate the controls.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the “DoD Contract Management” high-risk area.




                                    32
Appendix B. Prior Coverage
    During the last 5 years, the Government Accountability Office (GAO), the
    Department of Defense Inspector General (DoD IG), the Army Audit Agency
    (AAA), the Naval Audit Service (NAS), and the Air Force Audit Agency (AFAA)
    have issued 20 reports discussing contract surveillance of service contracts.
    Unrestricted GAO reports can be accessed over the Internet at
    http://www.gao.gov. Unrestricted DoD OIG reports can be accessed at
    http://www.dodig.mil/audit/reports.


GAO
    GAO Report No. GAO-05-274, “Opportunities to Improve Surveillance on
    Department of Defense Service Contracts,” March 17, 2005


DoD IG
    DoD IG Report No. D-2004-015, “Contracts for Professional, Administrative, and
    Management Support Services,” October 30, 2003

    DoD IG Report No. D-2003-099, “Service Contracts at the National Imagery and
    Mapping Agency,” June 6, 2003

    DoD IG Report No. D-2003-029, “Contract Actions Awarded to Small
    Businesses,” November 25, 2002

    DoD IG Report No. D-2001-102, “Service Contracts at the National Security
    Agency,” April 17, 2001 (Confidential)

    DoD IG Report No. D-2000-100, “Contracts for Professional, Administrative, and
    Management Support Services,” March 10, 2000


Army
    AAA Report No. A-2003-0362-IMT, “Contract Administration for the
    Directorate of Installation Support Contact,” July 29, 2003

    AAA Report No. A-2003-0337-IMO, “Electrical Distribution System Contract,”
    June 27, 2003

    AAA Report No. A-2003-0216-IMO, “Privatization of Utility Distribution
    System,” April 11, 2003



                                      33
       AAA Report No. A-2002-0580-AMA, “Managing Service Contracts,”
       September 23, 2002

       AAA Report No. A-2002-0477-IME, “Administering Service Contracts,”
       July 8, 2002

       AAA Report No. AA-02-66, “Administering Service Contracts,”
       November 20, 2001


Navy
       NAS Report No. N2004-0031, “Service Contracts for Chartered Tugboats,”
       March 16, 2004

       NAS Report No. N2003-0035, “Post Award Reviews for Navy Commercial
       Activity Studies Under OMB Circular A-76,” March 14, 2003


Air Force
       AFAA Report No. F2004-0028-FDN000, “Custodial Service Contract,”
       March 17, 2004

       AFAA Report No. F2004-0016-FDW000, “Janitorial Service Contract,”
       January 30, 2004

       AFAA Report No. F2003-0004-FD300, “Task Force Enduring Look Contractor
       Support,” June 16, 2003

       AFAA Report No. F2003-0032-FBM-000, “Janitorial Service Contract,”
       May 19, 2003

       AFAA Report No. F2002-044-WN000, “Service Contracting Quality Assurance
       Evaluation Program,” August 27, 2002

       AFAA Report No. 99064019, “Service Contracting Quality Assurance Evaluation
       Program,” January 12, 2000




                                        34
Appendix C. DCAA and DCMA Roles in
            Contract Surveillance
    Contracting officers may enlist the services of both DCAA and DCMA for
    contract administration and surveillance purposes. Following is a discussion of
    the roles played by each agency in the surveillance process.


DCAA Role in Contract Surveillance
    DCAA operates under the direction, authority, and control of the Under Secretary
    of Defense (Comptroller)/Chief Financial Officer. DCAA consists of six major
    organizational components, including a Headquarters and five regions: Central,
    Eastern, Mid-Atlantic, Northeastern, and Western. DCAA Headquarters houses
    the Director, Deputy Director, Executive Officer, Special Assistant for Quality,
    General Counsel (Defense Legal Services), and the Assistant Directors for
    Operations, Policy and Plans, and Resources. Within each region are resident and
    branch offices. Resident offices are established at large defense contractor
    locations, and branches are established in major metropolitan areas to audit all
    other contractors on a mobile basis. DCAA has the authority to review and
    approve payment of contractors’ claims (vouchers) under cost-reimbursement,
    time-and-materials, and labor-hour contracts as set forth in DoD Directive
    No. 5105.36 and implemented in FAR 42.803(b) and DFARS 242.803(b).

    DCAA determines the type and frequency of audits based on contractor risk.
    Contractor risk is determined by factors such as contractor size, organization and
    ownership characteristics, nature of business, complexity of operations, and the
    status of its business systems and related internal controls. In addition, DCAA
    uses the contractor’s auditable dollar value to assess risk and designate
    contractors as either a major contractor or nonmajor contractor. Contractors with
    an auditable dollar value greater than $90.0 million are major contractors, and
    contractors with an auditable dollar value of less than $90.0 million are nonmajor
    contractors. Special audit guidelines exist for low risk nonmajor contractors with
    an auditable dollar value less than $15.0 million.

    The following audits or reviews are necessary for contract oversight at most
    contractors:

       •   incurred cost audits,

       •   labor floor checks and interviews,

       •   annual testing of paid vouchers, and

       •   internal control audits.

    Incurred Cost Audits. An incurred cost audit examines the contractor’s cost
    representations (for example, interim and final public vouchers, progress


                                        35
  payments, incurred cost submissions, termination claims, and final overhead
  claims) to determine if the incurred costs are allowable, reasonable, and allocable
  to the contract. In addition, the auditor determines whether the accounting system
  is adequate for subsequent cost determinations, which may be required for current
  or future contracts. DCAA performs incurred cost audits on incurred cost
  proposals submitted by the contractor. Contractors submit their cost proposals
  within 6 months of the contractor’s fiscal year-end, and DCAA has 1 year
  following submission to complete the audit for major contractors and 2 years
  following submission to complete the audit for nonmajor contractors. DCAA
  performs incurred cost audits annually on all major contractors and nonmajor
  contractors with an auditable dollar value greater than $15.0 million. DCAA
  performs annual incurred cost audits on nonmajor contractors with an auditable
  dollar value less than $15.0 million unless the contractors are designated as low-
  risk. For-low-risk contractors with auditable dollar value less than $15.0 million,
  audits are performed statistically at least every 3 years. The following
  table contains the DCAA model of an incurred cost proposal.

                            Model Incurred Cost Proposal

   Schedule                                         Title
Schedule A       Summary of Claimed Indirect Expense Rates
Schedule B       General and Administrative (G&A) Expenses (Final Indirect Cost
                 Pool)
Schedule C       Overhead Expenses (Final Indirect Cost Pool)
Schedule D       Occupancy Expenses (Intermediate Indirect Cost Pool)
Schedule E       Claimed Allocation Bases
Schedule F       Facilities Capital Cost of Money Factors Computation
Schedule G       Reconciliation of Books of Account and Claimed Direct Costs
Schedule H       Schedule of Direct Costs by Contract/Subcontract and Indirect Expense
                   Applied at Claimed Rates
Schedule H-1     Government Participation in Indirect Expense Pools
Schedule I       Schedule of Cumulative Direct and Indirect Costs Claimed and Billed
Schedule J       Subcontract Information
Schedule K       Summary of Hours and Amounts on Time and Material and Labor
                   Hour Contracts
Schedule L       Reconciliation of Total Payroll to Total Labor Distribution
Schedule M       Listing of Decisions/Agreements/Approvals and Description of
                   Accounting/Organizational Changes
Schedule N       Certificate of Final Indirect Costs
Schedule O       Contract Closing Information for Contracts Completed in this Fiscal
                   Year


  Floor Checks and Interviews. A floor check is an evaluation of the contractor’s
  overall compliance with internal controls and labor accounting procedures to
  ensure reliability of employee time records and the resultant labor hours charged
  to contracts. A floor check also includes physical observations of work areas to


                                      36
determine that employees are actually at work, performing in their assigned job
classification, and charging time to the appropriate job. Major contractors and,
unless a reason is documented, nonmajor contractors with an auditable dollar
value greater than $15.0 million, receive a floor check on an annual basis.
Nonmajor low-risk contractors with an auditable dollar value less than
$15.0 million have floor checks performed at least once every 3 years, depending
on assessed risk.

Annual Testing of Paid Vouchers. The annual testing of paid vouchers
determines if the contractor’s voucher preparation procedures are adequate for the
contractor’s continued participation in the direct billing program. DCAA tests a
random sample of paid vouchers recently submitted directly to Government
paying offices. Each major contractor with direct billing is tested annually.
DCAA selects nonmajor contractors annually on a sample basis to be tested.

Internal Control Audit Planning Summary. DCAA uses the Internal Control
Audit Planning Summary to summarize the auditor’s assessment of control risk as
a basis for planning related audits, based on the audits of 10 separate internal
control accounting and management systems. Two audits of specific interest are
the labor system audit and the billing system audit. The labor system audit
evaluates the adequacy of and the contractor’s compliance with the labor system’s
internal controls. The objective is to assess control risk for the allowability and
allocability of labor costs charged and billed to Government contracts. The
billing system audit evaluates the adequacy of and the contractor’s compliance
with the billing system’s internal controls. The contractor’s billing system should
provide reasonable assurance that billings applicable to Government contracts are
prepared in accordance with applicable laws and regulations and contract terms,
and that material misstatements are prevented, or detected and corrected in a
timely manner. DCAA performs internal control system audits for each
contractor on a cyclical basis of 2 to 4 years based on a documented risk
assessment.

DCAA Direct Billing. A contractor who maintains adequate billing system
internal controls, and submits timely incurred cost proposals and final vouchers in
accordance with the FAR 52.216-7, “Allowable Cost and Payment,” contract
clause, may be eligible to submit interim public vouchers directly to certain
Government paying offices rather than submitting each voucher to DCAA for
provisional approval. The elimination of provisional approval on each voucher
reduces payment cycle time and processing costs. DCAA bases continued
participation in the direct billing program on the results of ongoing surveillance of
billing systems, or the annual paid voucher review. DCAA may rescind direct
billing if:

   •   an audit report shows significant internal control deficiencies;

   •   a DCAA Form 1, “Notice of Contract Costs Suspended and/or
       Disapproved,” is prepared;

   •   the contractor fails to apply approved billing system procedures in
       preparing vouchers for direct billing;



                                     37
       •   the contractor fails to submit an incurred cost proposal in a timely manner;
           or

       •   the contractor fails to submit a final voucher in a timely manner.

    DCAA will immediately notify a contractor of a decision to withdraw its direct
    billing authority. DCAA will also notify the contracting officer and paying office
    within 24 hours of notifying the contractor.


DCMA Role in Contract Surveillance
    DCMA operates under the authority and direction of the Under Secretary of
    Defense for Acquisition, Technology, and Logistics. DCMA is divided into a
    Headquarters and three districts: District East, District West, and District
    International. The Headquarters houses the Office of the Director, Office of the
    Deputy Director, and the directors of each division located within the
    organization. The three districts are broken into 47 field offices. Each field
    office receives assignments based on its proximity to the location where the work
    is performed. DCMA is the DoD Component that works directly with Defense
    suppliers to help ensure that DoD, Federal, and allied government supplies and
    services are delivered on time, at projected cost, and meet all performance
    requirements.

    Contracting officers have the authority to delegate contract administration
    services to DCMA. The contracting officer may delegate all contract
    administration functions as listed in FAR Part 42.302, or they may retain some
    contract administration functions by imposing limitations on the duties delegated
    to DCMA. Often, contracting offices will enlist the help of DCMA to either
    support the designated COR, or to perform all contract administration functions
    when the contract office is short-staffed. DCMA may also be designated when
    they are more conveniently located to the contract work site.

    DCMA relies on DCAA audit reports to support risk assessments on contractors.
    DCMA assigns risk assessments to performance, schedule, and cost areas.
    Generally, the higher the level of risk, the greater the amount of oversight that is
    required in each area to ensure that the Government receives the best value for the
    services contracted.




                                        38
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
   Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Commander, U.S. Army Corps of Engineers, Engineering and Support Center, Huntsville

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Information Systems Agency
Director, Defense Contract Management Agency
Chief, Defense Information Technology Contracting Organization

Non-Defense Federal Organization
Office of Management and Budget




                                          40
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        41
Undersecretary of Defense for Acquisition,
Technology, and Logistics Comments
                                             Final Report
                                              Reference




                                             Deleted
                                             page 13




                       43
Final Report
 Reference




Page 19




               44
     Final Report
      Reference




45
Final Report
 Reference




               46
Department of the Navy Comments
                                  Final Report
                                   Reference




                    47
Final Report
 Reference




               48
     Final Report
      Reference




49
Final Report
 Reference




               50
Department of the Air Force Comments
                                       Final Report
                                        Reference




                     51
               Defense Information Systems Agency Comments
Final Report
 Reference




                                    52
     Final Report
      Reference




53
Final Report
 Reference




               54
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Contract Management prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed
below.

Terry L. McKinney
Timothy E. Moore
Robert E. Bender
Steven I. Case
Christine M. McIsaac
Kevin G. Burrowes
Breon E. Dehoux
Meredith H. Johnson
Jillisa H. Milner
